IN THE
SUPREME COURT OF THE UNITED STATES

____________________
Craig Howard,
Petitioner,
vs.
United States of America,
Respondent.
CERTIFICATE OF SERVICE
I, André C. Wharton, do swear or declare that on this date, August 10, 2020,
as required by Supreme Court Rule 29, I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid.
The names and addresses of those served are as follows:
Mr. Marques Young
Assistant U.S. Attorney
167 N. Main, Suite 800
Memphis, TN 38103
With a courtesy copy also e-mailed this same date to Assistant U.S. Attorney
Marques Young at: MYoung2@usa.doj.gov

Jeff Wall
Acting Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Ave., NW
Washington, D. C. 20530-0001
With a courtesy copy also e-mailed this same date to the Acting Solicitor
General, at: SUPREMECTBRIEFS@USDOJ.GOV.
I declare under penalty of perjury that the foregoing is true and correct.
Executed this 10th day of August 2020.

s/ André C. Wharton____________
André C. Wharton
Court-Appointed Counsel for
Petitioner

